No.
IN THE

Supreme Court of the United States
_____________________
JOEL HOWARD JAMES,
Petitioner,
v.
PEOPLE OF THE STATE OF MICHIGAN,
Respondent.
_____________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
MICHIGAN COURT OF APPEALS

________________________________________________
PETITION FOR WRIT OF CERTIORARI
________________________________________________
Matthew J. Wojda
Counsel for Petitioner
White, Wojda and Curtis
313 N. Second Avenue
Alpena, MI 49707
989-354-4104
mjwojda@dwwhitelaw.com

Dated: September 30, 2019

QUESTIONS PRESENTED FOR REVIEW
1. Based on a “class of one” analysis, does the
Equal Protection Clause of the Fourteenth
Amendment to the United States Constitution
bar application of the nonresident tolling
provision of MCL 767.24(10) where, although a
person did not usually and publicly reside
within the State of Michigan during the
limitations period, no crime was reported nor
any investigation initiated until years after the
statute of limitations would otherwise have
run?
2. Does the nonresident tolling provision of MCL
767.24(10) violate the Privileges and
Immunities Clause in Section 1 of the
Fourteenth Amendment to the United States
Constitution insofar as it creates a distinction
between
residents
of
Michigan
and
nonresidents?

i

LIST OF PRIOR PROCEEDINGS
Alpena County District Court
Case No. 15-0337 FY
People of the State of Michigan
v Joel Howard James
08/12/15
Opinion and Order Denying Motion to
Dismiss Re: Statute of Limitations
Alpena County Circuit Court
Case No. 15-006730-FH
People of the State of Michigan
v Joel Howard James
09/08/15
Opinion and Order Affirming District
Court’s Denial of Motion to Dismiss
re: Statute of Limitations
01/18/18
Opinion and Order Dismissing Case/ on
Basis that Tolling Provision of Statute
of Limitations Violates Equal
Protection Clause
Michigan Court of Appeals, Case No. 342504
People of the State of Michigan, Plaintiff/Appellee,
v Joel Howard James, Defendant/Appellant.
10/11/2018 Opinion - Authored - Published
Dismissal Reversed and Remanded for
Further Proceedings
Michigan Supreme Court Case No. 158719
People of the State of Michigan, Plaintiff/Appellee,
v Joel Howard James, Defendant/Appellant.
07/02/19
Order Denying Application for Leave
to Appeal
ii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR
REVIEW……………………………………………i
LIST OF PRIOR
PROCEEDINGS……....…………………………ii
TABLE OF
CONTENTS…………………….………………..iii
TABLE OF
AUTHORITIES…………………………………..vi
OPINIONS AND ORDERS BELOW
AND BASIS FOR JURISDICTION……………1
PERTINENT PROVISIONS OF LAW………..1
STATEMENT OF THE
CASE……………………………………………….2
REASONS FOR GRANTING THE
PETITION………………………………………..10
I. The steps in a criminal investigation
do not presume criminal activity…..11
II. As applied to James as a class of one,
MCL 767.24(10) constitutes a violation
of his rights to equal protection of
the laws…….…………………………..14
iii

III.James is similarly situated to other
individuals neither accused of nor
under investigation for crimes until
after the statute of limitations had
run, regardless of state of
residence………………………….…..16
IV. Courts have previously held that
speculative or hypothetical
Interests are not constitutionally
actionable……………………………..20
V. There is no rational basis for the
difference in treatment……………...21
VI. The difference in treatment as between
James and similarly situated Michigan
residents violates his Fourteenth
Amendment right to the privileges and
immunities of citizenship…………….34
CONCLUSION…………………………………..35
APPENDIX
APPENDIX A – Michigan
Court of Appeals Opinion ………………....1A
APPENDIX B – Michigan
Supreme Court Order….………………....17A

iv

APPENDIX C – 26th Circuit Court
Opinion and Order Dated
September 8, 2015….……………………...18A
APPENDIX D – 26th Circuit Court
Opinion and Order Dated
January 18, 2018….……………………….24A
APPENDIX E – Michigan
Compiled Laws 767.24 .…………………..30A
APPENDIX F – 14th Amendment
United States Constitution……………...34A
APPENDIX G – Michigan
Model Criminal Jury Instructions….….36A

v

TABLE OF AUTHORITIES
Cases
Allegheny Pittsburgh Coal Co. v. Comm'n of Webster
Cty., 488 U.S. 336, 109 S.Ct. 633, 102 L.Ed.2d 688
(1989)………………………………………………..…...14
Board of Regents v Roth, 408 U.S. 564, 92 S.Ct. 2701,
33 L.Ed.2d 548 (1972)………………………………….20
Burns v Lafler, 328 F.Supp.2d 711 (E.D. Mich
2004)………………………………………...............19, 31
Danuel v State, 262 Ga 349 (1992)………..…..…22, 23
Engquist v Or. Dep’t of Agric., 553 U.S. 591, 602; 128
S.Ct 2146; 170 L.Ed.2d 975 (2008)………………..….21
Heitman v State, 627 N.E.2d 1307 (1994)……..…….23
JDC Mgmt, LLC v Reich, 644 F.Supp.2d 905, 927
(W.D. Mich 2009)……………………………………….15
Kuznar v Raksha Corp., 481 Mich. 169; 750 N.W.2d
121 (2008)…………………………………………….….13
Lima Twp v Bateson, 302 Mich.App 483, 503; 838
N.W.2d 898 (2013)………………………………………15
McDonald v Village of Winnetka, 371 F.3d 992, 1002
(7th Cir. 2004)……………………………………...……15
vi

New Mexico v Cawley, 110 NM 705; 1990 N.M.S.C.
088; 799 P.2d 574 (1990)……………………….....27, 28
People v Allen, 192 Mich. App. 592, 602; 481 N.W.2d
800 (1992)………………………………………….….…12
People v Blackmer, 309 Mich.App 199; 870 N.W.2d
579 (2015)………………………………………………..29
People v Budnick, 197 Mich.App 21; 494 N.W.2d 778
(1992)…………………………………………………..7, 12
People v Crear, 242 Mich.App 158; 618 N.W.2d 91
(2000)…………………………………………….....6, 7, 28
People v Kasben, 500 Mich. 948, 890 N.W.2d 354
(2018, for publication)……………………………….....31
People v Laughlin, 293 Ill.App.3d 194, 687 N.E.2d
1162, 227 Ill.Dec. 680 (Ill App.Ct. 1998)…….….32, 33
People v McCausey; 65 Mich. 72, 73; 31 N.W. 770
(1887)……………………………………………………..12
People v McIntire, 232 Mich.App 71, 105; 591 N.W.2d
231 (1998), reversed on other grounds 461 Mich 147
(1999)…………………………………………...…..6, 7, 29
People v Miller, 482 Mich. 540, 759 N.W.2d 850
(2008)…………………………………………………....6, 7
People v Olszewski, 2004 Mich.App LEXIS 3224
(unpublished 2004)………………………….………….30
vii

People v Rapp (Docket Number 333613, unpublished
November 2017)……………………………………...….29
Richardson v Township of Brady, 218 F.3d 508 (6th
Circ. 2000)……………………………………………….20
RRI Realty Corp. v. Inc. Vill. of Southhampton, 870
F.2d 911, 918 (2d Cir. 1989)……………………...……20
Saenz v Roe, 526 U.S. 489, 503; 119 S.Ct 1518; 143
L.Ed.2d 689 (1999)……………………………….........34
Sector Enterprises, Inc. v. DiPalermo, 779 F.Supp.
236, 246–47 (N.D.N.Y.1991) ……………………...…..16
Scherling v Superior Court, 22 Cal.3d 493; 585 P.2d
219 (1978)…………………………………...12, 26, 32, 33
Sioux City Bridge Co. v. Dakota Cty., 260 U.S. 441, 43
S.Ct. 190, 67 L.Ed. 340 (1923)…………………………15
Slaughter-House Cases, 83 U.S. 36 (1873).…….34, 35
Smith v. Atlanta Indep. Sch. Dist., 633 F. Supp. 2d
1364, 2009 U.S. Dist. LEXIS 37767, 2009 WL
1259209, (N.D. Ga. May 4, 2009)…………………..…15
State v March, 395 SW3d 738, 788 (Tenn Crim App,
2011)………………...………………………………..11, 18
State v Sher, 149 Wis.2d 1; 437 N.W.2d 878 (1989)
………………………………………………...11,19, 26, 27
viii

Toussie v. U.S., 397 U.S. 112 (1970)………………….12
United States v Brown, 959 F.2d 63 (6th Cir. 1992)..32
United States v MacDonald, 456 U.S. 1, 71 L.Ed.2d
696, 102 S.Ct. 1497 (1982)…………….………………32
United States v Moore, 543 F.3d 891, 899 (7th Cir.
2008)………………………………………………………15
United States v Norris, 780 F.2d 1207 (5th Cir.
1986)………………………………………………………32
United States v Udell, 109 F.Supp 96, 97-98 (D. Del
1952)………………………………………………………33
Village of Willowbrook v. Olech, 528 U.S. 562, 564,
120 S.Ct. 1073, 145 L.Ed.2d 1060 (2000)….…….14, 21
Michigan Attorney General Opinions
Op Atty Gen, 1928-1930 p582………………….………6
Michigan Court Rules
MCR 2.116(C)(7)……………………………….………..13
Michigan Statutes
MCL 767.24……….….………...1, 2, 4, 8, 29, 30, 31, 36
ix

MCL 767.24(3)………..………………….…………….3, 8
MCL 767.24(10)……………………….4, 6, 8, 11, 14, 17
MCL 767.24(8)…………………………….…………….18
United States Constitution
United States Constitution, Fifth Amendment……31
United States Constitution, Sixth Amendment…...31
United States Constitution, Fourteenth Amendment
………………………………………….2, 4, 10, 17, 32, 34
Federal Statutes
28 USC §1257(1)…………………………………………1
Federal Rules of Civil Procedure
12(b)(6)…………………………………………….……..13
Georgia Statutes
OCGA §17-3-2(1)…………………………...…………..23
Indiana Statutes
I.C. 35-41-4-2(g)(1)……………………………..………24
x

Other Authorities
Mich. Crim. Jur. Inst. 1.8…………………………….12
Mich. Crim. Jur. Inst. 1.9…………………………….12
Mich. Crim. Jur. Inst. 3.2…………………………….12

xi

Petitioner Joel Howard James prays this Court
will issue to the Michigan Court of Appeals a writ of
certiorari to review that Court’s attached opinion
reversing the decision of the 26th Circuit Court in
Alpena County, Michigan to dismiss the charges
against him
OPINIONS AND ORDERS BELOW
AND BASIS FOR JURISDICTION
Petitioner’s basis for seeking dismissal at the
trial court level included claims that, as applied to
him, the State of Michigan lacked a rational basis
under the equal protection clause of the United States
Constitution to differentiate between residents of the
state and nonresidents under the state’s nonresident
tolling provision, MCL 767.24. The state Circuit
Court dismissed the case after finding that, as applied
to Petitioner, the state lacked a rational basis for
distinguishing between residents and nonresidents.
The text of that opinion is located in the Appendix at
pp. 24A – 29A. The Court of Appeals reversed in a
published decision. The Court of Appeals’ decision is
located in the Appendix at pp. 1A – 16A. Leave to
appeal to the Michigan Supreme Court was timely
sought, but was denied on July 2, 2019. The Order
denying leave to appeal is located in the Appendix at
p. 17A. Accordingly, this Court has jurisdiction of this
case pursuant to 28 U.S.C. §1257(a).
PERTINENT PROVISIONS OF LAW
The provisions of federal law pertinent to this
petition are the Equal Protection Clause and the
Privileges and Immunities Clause, which are both
1

found in Section 1 of the Fourteenth Amendment to
the Constitution of the United States. Also pertinent
to resolving the federal question of this case is
Michigan’s nonresident tolling provision, MCL
767.24. Although both are concise and readily
quotable here, those provisions are, for ease of
reference, reproduced in the Appendix at 34A – 35A
and 30A – 33A, respectively.
STATEMENT OF THE CASE
Recent years have seen increasing instances of
allegations levelled against individuals—both
celebrity and ordinary citizen—involving claimed
sexual misconduct from years (or even decades)
earlier. Often, these accusations—which all too
frequently are accompanied by great public outcry—
surface for the first time long after any criminal
statute of limitations has expired. Many such cases
are impacted by nonresident tolling provisions.
Under such provisions, a citizen who, unaware of the
existence of any claim of wrongdoing and untainted
by any type of formal or informal complaint or report
to a governmental representative, allows his
employment to take him outside the state of
Michigan.1 Such was the case with Petitioner Joel
Howard James (“James”).
From the early 1990s until 2013, Petitioner
James primarily lived and worked in Alaska. During
that time, he made regular return trips to Michigan,
Although there are many other examples, cases involving
decades old claims of sexual misconduct against Catholic priests
and various celebrities come to mind.

1

2

where he owned a large tract of land. Until 2012,
James had never been under criminal investigation of
any sort, and Kristy Bartlett, the alleged victim in
this case, had never reported any sort of alleged
sexual misconduct by James. Then, in 2012, police
officers initiated an investigation into James’ alleged
sexual misconduct.2 As part of the investigation,
officers spoke with Bartlett, who claimed that James
had sexually assaulted her in 1996 or 1997.
At the culmination of the initial investigation
in 2013, James was at a worksite in Alaska when he
was approached by a group of police officers, placed
under arrest, and transported to a local jail where he
would be held for extradition to Michigan. When he
had gone to work that day, he had no way of knowing
that he would soon be facing charges with underlying
allegations that were substantially more than 10
years old.
As the initial cases involving other alleged
victims proceeded toward trial with Bartlett ready to
serve as an “other acts” witness under Michigan
statute, the People on June 1, 2015 filed additional
charges naming Bartlett as the complaining witness
alleging four counts of Criminal Sexual Conduct in
the Third Degree (“CSC 3rd”). At all relevant times
CSC 3rd was subject to a 10-year statute of limitations
under MCL 767.24(3).3
The initial investigation was centered on two other women but
would grow to include Bartlett. The cases involving other
women are not relevant to this appeal.
3 The statute further provides that the period of limitations
remains open until the victim’s twenty-first birthday, but this
provision is inapplicable since Bartlett was born in 1982.
2

3

Because the sexual events were alleged to have
occurred in 1996 or 1997, the applicable 10-year
statute of limitations would have run in 2006 or 2007
if James were a Michigan resident.
However,
although he continuously owned property in the State
of Michigan and routinely returned for periods of time
in most years, it is undisputed that James’ legal
residence remained in Alaska until the time he was
extradited to Michigan to face the current charges.
Logically, no police investigation as to
Bartlett’s allegations could have begun until after she
had made them and, indeed, no police investigation of
any sort involving James was commenced until
approximately November 2012, shortly after Bartlett
first reported the alleged sexual abuse. The People
did not file charges until 2015.
This case hinges upon analysis of the Equal
Protection Clauses of the Fourteenth Amendment as
it relates to MCL 767.24, the nonresident tolling
provision relevant to this matter:
“Any period during which the party
charged did not usually and
publicly reside within this state is
not part of the time within which
the respective indictments may be
found and filed.” MCL 767.24(10).
Petitioner initially moved
different grounds while this case
District Court. The District Court
opinion dated August 12, 2015 that
4

to dismiss on
was in the 88th
issued a written
the case was not

untimely under the applicable statute of limitations
and that the statute, if read literally, did not produce
an “absurd and unjust result” inconsistent with the
purposes and policies of the act.
Petitioner filed an interlocutory appeal to the
Circuit Court, which affirmed the District Court’s
decision. In doing so, though, the Circuit Court made
a number of factual determinations (which the parties
do not dispute) relevant to this appeal (Opinion and
Order Dated September 8, 2015 see Appendix pp. 18A
– 23A):
26th

¾ James was, in 1996, a resident of Alaska
and remained so until being extradited.
(Appendix p. 19A).
¾ A ten-year statute of limitations applies
to the charges. (Appendix p. 19A).
¾ Had James been a constant resident of
Michigan, the statute of limitations
would have expired. (Appendix p. 20A).
The case involving Bartlett has been tried on
two occasions4 resulting in acquittal as to two counts
and hung juries as to the other two. When the People
gave notice of their intent to try the case a third time,
James filed a different motion on December 5, 2017.
This time, James did not directly attack the statute,
but instead claimed that it violated his right to equal
protection and the privileges and immunities of
First from September 29, 2015 through October 2, 2015, then
May 11, 2016 through May 13, 2016.

4

5

citizenship under the state and federal constitutions
as applied.
In an Opinion and Order dated January 18,
2018, the Circuit Court agreed, stating:
“MCL 767.24(10) provides that the
limitations period is tolled for “any
period during which the party
charged did not usually and
publicly reside within this state…”
In interpreting this language,
courts have consistently held that
nonresident tolling “applies only in
those situations where a suspect is
no longer a resident of this state.”
People v Crear, 242 Mich.App 158;
618 N.W.2d 91 (2000); overruled in
part on other grounds by People v
Miller, 482 Mich. 540, 759 N.W.2d
850 (2008) (emphasis added); see
also People v McIntire, 232
Mich.App 71, 105; 591 N.W.2d 231
(1998), reversed on other grounds
461 Mich 147 (1999).
These
holdings corroborate a former
attorney general opinion that
determined
the
statute
of
limitations will not run against an
accused while not usually and
publicly residing within the state.
Op Atty Gen, 1928-1930 p582.
Logically,
then,
the
tolling
provision advances a state interest
in permitting later prosecution in
6

cases where a suspect or accused no
longer resides in Michigan.
In comparison, it is undisputed
that defendant was not a suspect
until after the statute of limitations
had expired. This is because he
was not accused of any wrongdoing
until 2012, and no investigation
commenced until that time. The
Court is aware of no case in
Michigan jurisprudence where
nonresident tolling has been
applied
in
under
such
circumstances. Rather, the tolling
provision seems to have only been
applied in limited situations where
a suspect was a nonresident during
the limitations period. See People
v Crear, 242 Mich.App 158; 618
N.W.2d 91 (2000); overruled in part
on other grounds by People v
Miller, 482 Mich. 540, 759 N.W.2d
850 (2008); see also People v
McIntire, 232 Mich.App 71, 105;
591 N.W.2d 231 (1998), reversed on
other grounds 461 Mich 147 (1999);
and People v Budnick, 197
Mich.App 21; 494 N.W.2d 778
(1992); The Court sees no rational
basis for the tolling provision to be
extended to this case.
The Court is mindful that this is an
exceptionally limited, fact-driven
7

circumstance
involving
MCL
767.24(10).
Nonetheless,
defendant, as a class of one, has
sufficiently demonstrated that the
statute violates equal protection in
this manner.” (Appendix p. 29A).
The People appealed the Circuit Court’s
decision, claiming that application of the nonresident
tolling provision of MCL 767.24 to James violates
neither the equal protection clauses nor the Privileges
and Immunities clause of the Michigan or United
States Constitution and that, in finding that the
tolling provision did not apply to James, the Court
abused its discretion.
James responded that he was (and remains)
presumed innocent of any wrongdoing and denies
even the occurrence of any of the incidents alleged to
have transpired in 1996 or 1997. Moreover, because
Bartlett did not make any complaint, allegation, or
assertion or any kind against James until 2012; and
because nobody—governmental entity or otherwise—
commenced any sort of inquiry or investigation into
Bartlett’s claims until 2012, the government had no
rational
basis
for
distinguishing
between
nonresidents and residents until at least five years
after the statute of limitations should have run.
Accordingly, as applied to the unique circumstances
of this case, application of the nonresident tolling
provision of MCL 767.24 to James would violate his
right to equal protection under the laws. Thus, the
Circuit Court, having determined that the
nonresident tolling provision was unconstitutional as
applied to James, correctly concluded that it had no
8

choice but to dismiss as untimely the claims against
him.
The Michigan Court of Appeals, in a published
decision and a matter of first impression dated
October 11, 2018, reversed the Circuit Court’s
decision, stating:
“If a crime occurs, but no one
reports it, is it still a crime? To ask
the question is to answer it. The
state of Michigan has an interest in
discovering previously unreported
crimes, and this interest serves as
a
rational
basis
for
the
Legislature’s tolling of the statute
of limitations with respect to
nonresidents charged with a crime
that remained unreported until
after the untolled limitations
period had lapsed.” (Appendix p.
2A).
James next sought leave to appeal the Court of
Appeals’ decision with the Michigan Supreme Court
because, he contended, the Court of Appeals created a
domino effect of errors in assuming that a crime
occurred. Rather than presume that criminal activity
has occurred when hindsight of more than a decade is
the only tool of analysis, James maintains that the
test in determining whether the state has a rational
basis for distinguishing between residents and
nonresidents is whether some triggering event—a
report, complaint, or investigation of some kind—
occurs prompting the government to exercise its
9

interest. Under that test, the claims against James
would be time barred because, for the entirety of the
ten-year limitations period (and indeed, for an
additional five or more years), the government had no
notice that there was any sort of allegation to
consider.5
The Michigan Supreme Court denied James’
Application for Leave to Appeal in an Order dated
July 2, 2019 (Appendix p. 17A).
REASONS FOR GRANTING THE PETITION
Given the current political climate with regard
to claims of sexual misconduct from the distant past,
this is a situation that is likely to be often repeated in
the coming years. Accordingly, this is an issue of
great public interest and, because it goes directly to
the heart of Constitutional protections afforded
individuals, it involves principles of major legal
significance. Finally, this Court has not yet spoken
on this issue, and there exists a conflict between state
courts as to the application of nonresident tolling
provisions.
The crucial overarching issue for consideration
is this: whether James’ rights as a “class of one”
The Court of Appeals seems to conclude that if a tree falls in
the forest (despite the presumption that it is innocent of falling),
the government has an inherent interest in it even though the
event may not be reported for decades. Petitioner James
maintains that until there is a report of some sort, the state not
only has no reason to know that a tree may have fallen, it is
unaware even of the possibility of the existence of a forest in
which it may be interested.

5

10

under the equal protection clause of both the
Michigan and United States Constitutions are
violated through the application of the nonresident
tolling provision at MCL 767.24(10). For the reasons
set forth below, the nonresident tolling provision, as
applied to him, violated his rights to equal protection
and the Court of Appeals erred in reversing the
Circuit Court’s earlier decision.
I.

The steps in a criminal investigation
do not presume criminal activity.

The Court of Appeals concludes without
analysis that criminal activity has occurred in this
case where no such finding has been made:
“We point out the obvious—an
unreported crime is still a crime,
and the victim of an unreported
crime is still a victim. There may
be any number of reasons why a
crime is not initially reported,
including
a
victim’s
age,
vulnerability, or fear, or the lack of
corroborating witnesses or physical
evidence. The state certainly has
an
interest
in
discovering
previously unreported crimes, as
well as subsequently investigating
and prosecuting them. Cf March,
395 SW3d at 787 (holding that “the
State’s interest in detecting crime
and
punishing
offenders
is
compelling” (emphasis added));
Sher, 149 Wis 2d at 16 (observing
11

that the “statute is substantially
related to the state’s interests in
detection of crimes, and the
identification and apprehension of
criminals
(emphasis
added));
Scherling v Superior Court of
Santa Clara County, 22 Cal 3d 493,
503; 585 P2d 219 (Cal 1978)
(concluding that “the Legislature
could have determined that the
detection of the crime and
identification of the criminal are
more likely if the criminal remains
in the state than if he departs”
(emphasis added)).” (emphasis in
original).
While it is obvious that an actual crime, though
unreported, is still a crime, it is similarly obvious that
the mere report of a crime does not gain actuality
until the suspect defendant’s presumption of
innocence is burst by virtue of a conviction. See, e.g.,
Michigan Crim. Jury Instr. 1.8, 1.9, and 3.2(1)
(Appendix pp. 36A – 40A). Indeed, a statute of
limitations is blind to the ultimate truth or falsity of
criminal allegations as its concern relates instead to
the passage of time and its effect upon the accuracy of
testimony and unfairness that may result from stale
evidence and dull memories. People v McCausey; 65
Mich. 72, 73; 31 N.W. 770 (1887); People v Budnick,
197 Mich. App. 21; 494 N.W.2d 778 (1992); People v
Allen, 192 Mich. App. 592, 602; 481 N.W.2d 800
(1992). This Court discussed the purpose of statutes
of limitations in Toussie v. U.S.:
12

“The purpose of a statute of
limitations is to limit exposure to
criminal prosecution to a certain
fixed period of time following the
occurrence of those acts the
legislature has decided to punish
by criminal sanctions. Such a
limitation is designed to protect
individuals from having to defend
themselves against charges when
the basic facts may have become
obscured by the passage of time
and to minimize the danger of
official punishment because of acts
in the far-distant past. Such a time
limit may also have the salutary
effect
of
encouraging
law
enforcement officials promptly to
investigate suspected criminal
activity.” 397 U.S. 112 (1970).
In determining whether a statute of limitations
has been violated, the Court has no power to consider
the merits of the underlying claim, the factual
development of the case, or the strength of the
potential testimony against a defendant.6
The
calculation is a simple one: has more time passed
than has been permitted by the legislature for filing a
complaint against a defendant? Thus, the Court of
Consider that in civil cases, motions for summary disposition
pursuant to MCR 2.116(C)(7) in Michigan and Rule 12(b)(6)
federally accept the pleadings as true and look only into
additional documentary evidence that sheds light onto the
timeliness of the complaint. See, e.g. Kuznar v Raksha Corp,
481 Mich 169, 175-176; 750 NW2d 121 (2008).
6

13

Appeals, in focusing on the supposed existence of
crime, is at once making both a constitutionally
impermissible “leap” and delving into matters not
relevant to a statute of limitations analysis.
II.

As applied to James as a class of one,
MCL 767.24(10) constitutes a violation
of his rights to equal protection of the
laws.

Claims under the equal protection clause may
either be made on behalf of a protected class or under
a “class of one” theory. While protected classes are
afforded heightened levels of scrutiny, class of one
claims are subject to rational basis review. 7
This Court has “recognized successful equal
protection claims brought by a ‘class of one,’ where the
plaintiff alleges that [he or] she has been intentionally
treated differently from others similarly situated and
that there is no rational basis for the difference in
treatment.” Village of Willowbrook v. Olech, 528 U.S.
562, 564, 120 S.Ct. 1073, 145 L.Ed.2d 1060 (2000)
(citing Allegheny Pittsburgh Coal Co. v. Comm'n of
Webster Cty., 488 U.S. 336, 109 S.Ct. 633, 102 L.Ed.2d
The recognized suspect classes are race, national origin,
religion and alienage. Although state citizenship has not been
recognized as a suspect class, it bears many traits similar to the
national origin class. That is, there is not a significant difference
between treating a person differently because he or she is from
India or Indiana. If the Court finds state citizenship to be a
suspect class, it should measure conduct under the strict
scrutiny standard. However, Defendant James contends that
the application of the statute at issue here fails to meet even the
less rigid rational basis standard.

7

14

688 (1989) and Sioux City Bridge Co. v. Dakota Cty.,
260 U.S. 441, 43 S.Ct. 190, 67 L.Ed. 340 (1923)).
The extent to which individuals must be
similarly situated to maintain a class of one claim is
still an underdeveloped area of law. See McDonald v
Village of Winnetka, 371 F.3d 992, 1002 (7th Cir.
2004). However, as the Circuit Court noted, in order
to be similarly situated, the challenger and his
comparators must be “prima facie identical in all
relevant respects or directly comparable…in all
material respects.” United States v Moore, 543 F.3d
891, 899 (7th Cir. 2008); Lima Twp v Bateson, 302
Mich.App 483, 503; 838 N.W.2d 898 (2013) (emphasis
added).8
“[I]n order to prove that they are being treated
differently than other people who are similarly
situated, [the person claiming the violation] must
obviously be able to identify a class of persons to
whom they are similarly situated but less favorably
While it is true that the issue of whether individuals are
similarly situated is a factual question for a jury, here there is
no factual dispute for a jury to decide. Instead, the parties agree
as to the basic underlying facts and, although summary
disposition is not an available avenue in a criminal proceeding,
this Court has the ability to decide the underlying legal issue
given the lack of factual dispute: Whether individuals or entities
are similarly situated is generally a question of fact for the jury;
"however, where there is no genuine issue of fact that such a
comparator exists, the court may decide this matter on summary
judgment." JDC Mgmt, LLC v Reich, 644 F.Supp.2d 905, 927
(W.D. Mich 2009) citing Smith v. Atlanta Indep. Sch. Dist., 633
F. Supp. 2d 1364, 2009 U.S. Dist. LEXIS 37767, 2009 WL
1259209, (N.D. Ga. May 4, 2009).

8

15

treated.” Sector Enterprises, Inc. v. DiPalermo, 779
F.Supp. 236, 246–47 (N.D.N.Y.1991).
III.

James is similarly situated to other
individuals neither accused of nor
under investigation for crimes until
after the statute of limitations had run,
regardless of state of residence.

Rather than presume governmental interest in
the hypothetical possibility that someone could come
forward at a future time, it seems far more sensible—
and constitutionally sound—to distinguish between
citizens only when such distinction becomes relevant.
Here, there exists a clear group of similarly situated
individuals: individuals who, though clothed in the
presumption of innocence, may have engaged in
illegal activity as to which (a) no objectively
undeniable event (such as a stolen item or a burned
down building) occurred, (b) no allegation was made
during the term of the applicable statute of
limitations and (c) no investigation had been
commenced by any governmental agency during the
term of the applicable statute of limitations.
Under this analysis, the distinction between
residents of Michigan and nonresidents is wholly
irrelevant and immaterial because nothing had been
reported and there was nothing to investigate. Thus,
because there had been no identifiable event, nothing
had been reported, and there was no investigation
underway, residents and nonresidents of Michigan
are precisely the same—citizens equally bound by the
laws of the State of Michigan and of the United States
but not sought for questioning or under suspicion of
16

any kind. Moreover, the comparators, as citizens of
the United States and beneficiaries of its
Constitution, are equally protected by the equal
protection clause whose breadth ignores state lines
when applied to the circumstances of this case. 9
And, equally importantly, there was no
“victim” to protect or for whom to seek justice because
none had come forward. Thus, there was neither a
“wrong” to avenge nor a wrongdoer to seek. Indeed,
any distinction between residents and nonresidents
would be entirely insignificant and purely conjectural
until an identifiable event occurs triggering a
complaint, investigation, or inquiry of some sort.
The Court of Appeals began its equal protection
analysis by finding that James was not similarly
situated to Michigan residents. It found that because
a person must be similarly situated in all material
respects, and because state of residency is a material
respect, residents and nonresidents should not be
paired together for equal protection analysis:
“As explained, defendant argues
that he should be compared to
Michigan residents who were not
identified as a suspect for a
reported crime within the untolled
limitations periods.10
This protection is enhanced by James’ entitlement to the
privileges and immunities of citizenship under the 14th
amendment as later discussed.
10 This is not an accurate description. Indeed, James argues that
he should be compared with individuals to which both of the
following apply: (1) no “triggering event”—such as a criminal
9

17

…
There is, however, a flaw in
Defendant’s argument. The set of
similarly situated persons must be
comparable to defendant in all
material aspects. On its face, the
tolling provision applies to all
persons who commit a crime in
Michigan and then no longer reside
usually and publicly in the state.11
MCL 767.24(8). Following this, the
most natural comparison set for
defendant’s claim would be those
persons who do not usually and
publicly reside here. See e.g. State
v March, 395 SW3d 738, 788 (Tenn
App 2011) (“The tolling statute on
its face applies equally to all
persons who commit a crime in this
State and then depart.”).
The inherent flaw in the Court of Appeals’
analysis lies in its assumption that there is something
to investigate prior to a triggering event:

complaint, 911 call, report to counselor, etc.—occurred to initiate
governmental action and (2) Defendant was never identified as
a suspect. In James’ analysis, state of residency does not matter
because, until the “triggering event” occurs, any distinction
between residents and nonresidents is purely irrelevant.
11 Under this analysis, James should be immune from
prosecution because he resided in Alaska before AND after the
supposed criminal event occurred. Thus, the out of state
residency did not follow the alleged criminal conduct, it preceded
it.

18

“Yet, with respect to a state’s police
power, there is a material
distinction between someone who
resides within the state and
someone who does not. A state’s
power to investigate and prosecute
a person is severely diminished
when that person does not reside
within its borders. State and local
law enforcement resources are not
infinite, and such resources will
often be insufficient to investigate,
question, or prosecute someone
who resides in a different state.
See Burns v Lafler, 328 FSupp 2d
711, 721 (ED Mich 2004). Choices
need to be made about how best to
allocate finite law enforcement
resources and rarely will those
resources best be used pursuing
out-of-state persons. Moreover, as
laboratories for public policy, other
states may not share Michigan’s
priorities with respect to criminal
law, and a case that is important in
this state may receive less
attention from authorities in
another state. See State v Sher,
149 Wis2d 1, 14; 437 NW2d 883
(Wis 1989). For these and other
reasons, courts have held that
residents and nonresidents are not
similarly situated for equalprotection purposes.
See, e.g.
19

Burns, 328 F Supp 2d at 721
(collecting cases).
Petitioner James agrees with the cited cases
concerning governmental interest in distinguishing
between residents and nonresidents. There is no
question that, in a criminal investigation, the
government’s efforts are frustrated by a suspect or
witness being absent from the state. But there is a
crucial distinction between the cases cited by the
Court of Appeals and James’ case. In the cases cited,
there was a complaint to investigate, whereas in
James’ case, the government was not expending any
resources, its purposes were not frustrated, and its
ability to investigate and prosecute was in no way
diminished because no complaint had been made, no
investigation initiated.
IV.

Courts have previously held that
speculative or hypothetical interests
are not constitutionally actionable.

As applied to individuals, Courts have
routinely held that “an abstract need or unilateral
expectation” does not give rise to constitutional
protection. See, e.g., Richardson v Township of
Brady, 218 F.3d 508 (6th Circ. 2000), Board of Regents
v Roth, 408 U.S. 564, 92 S.Ct. 2701, 33 L.Ed.2d 548
(1972), RRI Realty Corp. v. Inc. Vill. of Southampton,
870 F.2d 911, 918 (2d Cir. 1989).
These cases highlight the fact that “damages”
perceived through the distorted lens of speculation,
hypothesis or untamed imagination stand outside the
door inside which constitutional protection resides.
20

Indeed, were the door to constitutional protection to
be opened to the supposed impairment of a nonexistent complaint and investigation as requested by
the People and condoned by the Court of Appeals, a
fundamental freedom against governmental intrusion
would be forced to exit.
Such is the case here. No investigation was
commenced, no allegations made, no charges filed,
and no case filed until over five years after the statute
of limitations should have run.
As there can be no dispute that James would be
treated differently than a similarly situated person
through application of the nonresident tolling
provision, the next issue is whether there exists a
rational basis for the different treatment.
V.

There is no rational basis for the
difference in treatment.

When those who appear similarly situated are
nevertheless treated differently, the Equal Protection
Clause requires at least a rational reason for the
difference, to ensure that all persons subject to
legislation or regulation are indeed being "treated
alike, under like circumstances and conditions."
Thus, when it appears that an individual is being
singled out by the government, the specter of
arbitrary classification is fairly raised, and the Equal
Protection Clause requires a "rational basis for the
difference in treatment." Engquist v Or. Dep’t of
Agric., 553 U.S. 591, 602; 128 S.Ct 2146; 170 L.Ed.2d
975 (2008); citing Village of Willowbrook v Olech, 528
21

U.S. 562, 564, 120 S. Ct. 1073, 145 L. Ed. 2d 1060
(2000).
And in considering whether there is a rational
basis for different treatment, courts must bear in
mind the purpose behind a statute of limitations,
namely, the potential for an unjust result due to the
passage of time.
The Court of Appeals began its rational basis
analysis with its conclusion that an unreported crime
is still a crime. It found that “the state certainly has
an interest in discovering previously unreported
crimes, as well as investigating and prosecuting
them.” This rationale is indisputable as far as it goes.
Certainly, one can imagine many circumstances
where there would exist rational bases for treating
those residing in another state differently than those
residing in Michigan. Leaving the state knowing one
is a suspect or even a “person of interest” to a fledgling
investigation are prime examples, but when an
individual’s residency alone imparts no impact on a
criminal investigation, as here, the Court of Appeals
rationale is at once illogical and irrelevant.
In at least two published cases, state courts
have rejected the prosecution’s contention that
residence in and of itself constitutes a rational basis
for dissimilar treatment. In Danuel v State, 262 Ga
349 (1992), the Georgia Supreme Court analyzed a
nonresident tolling provision similar to Michigan’s.
In that case, the defendant had moved across state
lines shortly after the crimes had occurred, and both
the victim and witnesses knew exactly where he was.
The victim, defendant’s daughter, reported the
22

conduct shortly after the defendant refused to pay the
level fees for the victim’s divorce and custody dispute.
There, the Court held:
‘The state urges that OCGA § 17-32 (1) should be construed to mean
that whether the applicable statute
of limitation is tolled depends
solely upon the legal residence of
the alleged offender. On the other
hand, Danuel contends that such
an interpretation violates the equal
protection clause of both the U.S.
and the Georgia Constitutions.
Assuming, without deciding, that
Danuel is correct in this regard, we
will not interpret OCGA § 17-3-2
(1) in a manner which causes it to
be unconstitutional when there is
another interpretation for the
statute which is long standing,
logical,
and
constitutionally
sound.” Id. at 352.
Similarly, in Heitman v State, 627 N.E.2d 1307
(1994), the Indiana Court of Appeals stated in the face
of the state’s “residents only” defense of a similar
tolling provision:
“Were we to enforce the State's
interpretation of the statute of
limitations, the absence of a fair
and substantial relation between
the classification of residence and
23

the purpose of bringing criminals
to justice would render I.C. 35-414-2(g)(1) unconstitutional. If a
suspect has left Indiana and is
evading extradition or is otherwise
avoiding authorities, there would
be reason to toll the statute of
limitations. If a suspect has left
Indiana but cooperates fully with
Indiana authorities, and returns
voluntarily to Indiana to face the
charges against him, there would
be no reason to toll the statute of
limitations.” Id. at 1309-1310.12
In this case—the first of its kind in Michigan—
the Court of Appeals chose to paint with a broad
brush the state’s supposed interest:
“Moreover,
it
is
certainly
conceivable that an unreported
crime will more likely be discovered
when the guilty party resides
within the state where the crime
occurred.
A chance encounter
between the guilty party and the
victim, a casual conversation
between the guilty party and
someone with knowledge of the
victim or circumstances, or a
relatively minor traffic infraction
The Court ultimately held the statute constitutional as its
specific language, properly interpreted, classified suspects based
on their “amenability to process” rather than residence location.

12

24

leading to a confession, are just
several circumstances in which
residing in the same state where
the crime occurred could increase
the chance of local law enforcement
discovering an unreported crime.
Proximity often leads to discovery.”
(Appendix at p. 14A).
Then, in the next breath, the Court of Appeals
identifies what is perhaps the strongest argument for
reversal of its ultimate conclusion:
“Defendant is correct that a
“purely hypothetical” criminal
act cannot serve as a rational
basis
for
distinguishing
between
residents
and
nonresidents.
Yet,
the
prosecutor’s case here does not rest
on a “purely hypothetical claim.
Rather, the prosecutor presented
sufficient evidence to establish that
there was probable cause to believe
that defendant sexually assaulted
the complainant.” (Appendix at p.
14A. emphasis added).
The flaw in the Court of Appeals’ conclusion is
that it considered evidence acquired after the statute
of limitations had already run—the equivalent of
counting a basket scored years after the final buzzer
has sounded. Indeed, throughout the limitations
period, the existence of a crime, or even of an
25

allegation of a crime, against Joel James was purely
hypothetical.
In support of its identified rational basis, the
Court of Appeals relied upon a number of nonprecedential cases—each at least 28 years old—from
outside the State of Michigan, including Scherling v
Superior Court, 22 Cal.3d 493; 585 P.2d 219 (1978).
There, the defendant alleged an equal protection
violation where he was charged in 1976 for burglaries
committed in 1966 and 1967 despite a three-year
statute of limitations. Although the People claim that
the crime was not reported until 1976, the court’s
opinion declares otherwise, outlining an investigation
beginning as early as 1967 and well within the period
of limitations.
Regarding the impact of the defendant’s
change of residence from California to Idaho, the
Court declared:
“It is not unreasonable to find that
he would have been a target of
suspicion sooner if he had
remained in California.” Id. at 14.
Next, the Court considered the Wisconsin case
of State v Sher, 149 Wis.2d 1; 437 N.W.2d 878 (1989)
regarding whether a nonresident tolling provision is
related to a number of legitimate state objectives.
The Sher court identified “the identification of
criminals, the detection of crimes, and the
apprehension of criminals.” Id. at 14.

26

Unlike in the instant case, the Sher court
considered a situation where a boat was stolen from a
marina, reported as such, and investigated while the
period of limitation was still running. The defendant
was not charged until eight years later, in violation of
the statute of limitations but for the nonresident
tolling provision. Under those circumstances, the
state had a legitimate interest in detecting what was
clearly a crime because it had located and identified
the corpus delicto. And it had an interest in
identifying and apprehending the criminals because,
once an investigation reveals a suspect, the next
logical step is to charge the suspect with a crime.
But the world of equal protection, especially
class of one equal protection, depends upon the
specific factual scenarios of a case as its lifeblood.
And here, none of the circumstances present in Sher
existed. Instead, the proverbial radar was silent until
years after the statute of limitations should have run.
In New Mexico v Cawley, 110 NM 705; 1990
N.M.S.C. 088; 799 P.2d 574 (1990), a criminal sexual
conduct case, the defendant was alleged to have raped
his ten-year-old stepdaughter in May 1968. After the
alleged incident occurred and before a criminal
complaint was filed, the defendant left New Mexico
for Texas. It is not at all clear when the alleged
incident was reported. However, the defendant
resided in Texas for approximately eleven years,
returning to New Mexico only occasionally for
business and personal matters. Defendant was
charged in 1988, ten years after the applicable statute
of limitations would have run.
27

In affirming the conviction, the New Mexico
Supreme Court held that the legislature “intended
the tolling statute to foreclose the barring of a
prosecution due to the voluntary absence from the
state by a criminal offender.” Id. at 577. In holding
that a rational basis existed for the different
treatment, the court relied on the state’s concern that
“the process of investigation and prosecution of a
crime become more complex when a suspect leaves
the jurisdiction.” Id.
There is at least one crucial distinction
between Cawley and the instant case. Where in
Cawley, the defendant was deemed a suspect during
his period of absence from the state, James was not so
identified until at least five years after the statute of
limitations would have otherwise run. Thus, the
Cawley court’s identified interest in keeping
“suspects” within the jurisdiction for ease of
investigation and prosecution has no bearing on
James.
And other Michigan cases are uniformly
distinguishable from the circumstances set forth in
this case. A number of cases identify a state interest
in permitting later prosecutions in cases where a
suspect or accused no longer resides in Michigan. But
in each of those cases, the incidents had been reported
and an investigation was underway well before the
statute of limitations had run.
Moreover, no
Michigan case analyzes the factual scenarios under a
class of one equal protection analysis.
In People v Crear, 242 Mich.App 158; 618
N.W.2d 91 (2000), the court considered a sexual
28

assault alleged to have occurred in 1984 that was
indisputably reported to school officials and police in
that same year, though charges were not filed at that
time. People v Blackmer, 309 Mich.App 199; 870
N.W.2d 579 (2015) involved an alleged sexual assault
at gunpoint in 1981 that was reported and
investigated immediately. Police closed the file in
1982 without having identified a suspect. Meanwhile,
in People v Rapp (Docket Number 333613,
unpublished November 2017), the alleged 1986 sexual
assaults committed by defendant, a Catholic priest,
had been reported to the church around the time of
the events, and the defendant had been treated for
pedophilic tendencies and shifted from parish to
parish for years because of his sexual issues.
Meanwhile, People v McIntire, 232 Mich.App
71; 591 N.W.2d 231 (1998) involved a murder
investigation commenced in 1982 with obvious
distinguishing factors. The Defendant was aware of
the ongoing investigation having been summoned to
testify at an inquiry as a witness. In 1984, with the
murder still unsolved and the investigation still
incomplete, the Defendant moved to South Carolina.
In, 2004 Mich.App LEXIS 3224 (unpublished
2004), the Court of Appeals considered the claim of a
Catholic priest alleged to have sexually abused an
altar boy from 1971 until 200013 where the incidents
were not reported until 2002. Defendant claimed
that, despite moving to Florida in 1976, the
13 The evidence suggested an ongoing sexual relationship
between the two despite the priest’s eventual change in
residence.

29

approximate 30-year delay in reporting and filing
charges violated MCL 767.24 because it was
“fundamentally unfair” to toll the limitation period
where he was “residing openly in Florida, the
complainant knew his whereabouts, and he did not
leave the state to avoid prosecution.” Olszewski at 16
- 17.
The Court, finding the language of the statute
plain and unambiguous, found:
“Defendant
admits
that
he
transferred to Florida and left
Michigan in 1976, and resided
there continuously until he was
charged in this case. Because there
is no dispute that defendant had
not usually and publicly resided in
Michigan since 1976, the trial court
did not err in concluding that the
period of limitations was tolled
and, consequently, that the charges
in this case were timely filed.”
Olszewski at 16 - 17.
Olszewski is consistent with the District
Court’s earlier decision and the Circuit Court’s earlier
affirmance in the instant case. Simply put, the court
examined the language of MCL 767.24, found it to be
clear and unambiguous, and found it to apply to all
nonresidents—not only those who fled the jurisdiction
to avoid prosecution. What the court didn’t do—and

30

this Court has not yet done—is examine the statute
through a Constitutional lens.14
Such a challenge, however, is not without
federal precedent. In Burns v Lafler, 328 F.Supp.2d
711 (E.D. Mich 2004), the Court considered such a
challenge in an action arising out of an arson charge,
and its “rational basis” analysis under equal
protection confirms the accuracy of the Circuit Court’s
decision in this case.
In Lafler, the Adrian Auto Auction house was
burned to the ground in 1991. An investigation
started immediately thereafter and, although the
defendant was identified as a suspect within two
weeks of the fire, there was not sufficient evidence to
authorize charges. In 1998, one of the defendant’s coconspirators spoke to police and implicated him in an
actionable way. Between the time of the incident and
the filing of charges, the defendant lived in Ohio.
When charges were filed against him
approximately 7 years later, the defendant contended
that the statute of limitations was violated and that,
in any event, the nonresident tolling provision of MCL
767.24 violated his constitutional rights to Due

14 Most recently, this Court considered the nonresident tolling
provision in People v Kasben, 500 Mich 948, 890 N.W.2d 354
(2018, for publication), but as that case involved numerous
legislative extensions of the statute of limitations which
ultimately allowed prosecution at any time, and as the court did
not consider an equal protection analysis, it is not relevant to the
case at hand.

31

Process, Speedy Trial, and Equal Protection under
the 5th, 6th and 14th Amendments.15
In considering the equal protection claim under
a rational basis test, the Court concluded that:
“A rational basis exists for
provisions of the statute of
limitations which exclude from the
limitations period any time in
which a criminal defendant was not
a resident of the prosecuting state,
because nonresidents are not
similarly situated to residents,
in that investigating, charging,
and prosecuting an individual
with a crime is generally more
difficult when the suspect is
not within the state.” Id. at 721
(emphasis added), citing People v
Laughlin, 293 Ill.App.3d 194, 687
N.E.2d 1162, 227 Ill.Dec.680
(Ill.App.Ct. 1998) and Scherling v
Superior Court, 22 Cal.3d 493, 585
P.2d 219, 149 Cal. Rpter 597 (Cal.
The federal court found that the due process claim was without
merit because Defendant could not show either substantial
prejudice to his right to a fair trial or that the delay was an
intentional device by the government to gain a tactical
advantage, both of which were required under United States v
Brown, 959 F.2d 63 (6th Cir. 1992) and its progeny. And, because
speedy trial rights are not implicated until charges are pending,
his claim that the delay resulted in a violation of his right to a
speedy trial similarly lacked merit. See United States v
MacDonald, 456 U.S. 1, 71 L.Ed.2d 696, 102 S.Ct. 1497 (1982);
United States v Norris, 780 F.2d 1207 (5th Cir. 1986)
15

32

1978); and United States v Udell,
109 F.Supp 96, 97-98 (D. Del 1952).
In Laughlin, the defendant, a teacher, resigned
following a timely investigation into his alleged
sexual abuse of students. In Udell, the defendant
filed a falsified tax return with the Internal Revenue
Service which that agency immediately began looking
into. And in Scherling, police immediately began
investigating a string of burglaries and quickly
interviewed the defendant as a suspect. In each of
these four cited cases, unlike here, the State had an
immediate and identifiable interest in investigating,
charging, and prosecuting a crime that had been
reported and of which there was tangible evidence.
During the limitations period in this case—
from 1997 to 2007—it would not have mattered if
James was in Alaska, Alabama, Albania, Algeria or
even Alpena inhabiting a tent pitched on the
courthouse lawn. Indeed, James could have been
employed by the Alpena County Sheriff’s
Department—the very agency that eventually
investigated him—and have passed every background
check, qualified under every ethical standard, and not
aroused an ounce of suspicion from his coworkers or
any other law enforcement officials.

33

VI.

The difference in treatment as between
James and similarly situated Michigan
residents violates his Fourteenth
Amendment right to the privileges and
immunities of citizenship.

Although the extent of coverage of the
Privileges and Immunities Clause is sometimes
disputed, there is very little debate that one of the
fundamental rights it protects is a right to travel:
“Despite fundamentally differing
views concerning the coverage of
the Privileges or Immunities
Clause
of
the
Fourteenth
Amendment,
most
notably
expressed in the majority and
dissenting
opinions
in
the Slaughter-House Cases (1873),
it has always been common ground
that this Clause protects the third
component of the right to travel.
Writing for the majority in
the Slaughter-House Cases, Justice
Miller explained that one of the
privileges conferred by this Clause
"is that a citizen of the United
States can, of his own volition,
become a citizen of any State of the
Union by a bona fide residence
therein, with the same rights as
other citizens of that State." Saenz
v Roe, 526 U.S. 489, 503; 119 S.Ct
1518; 143 L.Ed.2d 689 (1999).
34

The Court continued:
"A citizen of the United States has
a perfect constitutional right to go
to and reside in any State
he chooses, and to claim citizenship
therein, and an equality of rights
with every other citizen; and the
whole power of the nation is
pledged to sustain him in that
right. He is not bound to cringe to
any superior, or to pray for any act
of grace, as a means of enjoying all
the rights and privileges enjoyed by
other citizens." Id. at 503-504,
citing Slaughter-House Cases, 83
U.S. 36, 112-113; 16 Wall. 36; 21
L.Ed 394 (1873).
Where, as here, a nonresident tolling provision
draws
distinctions
between
residents
and
nonresidents, a court must cast a wary eye and closely
examine the circumstances at issue lest there remain
untended a violation of the Privileges and Immunities
Clause. In this instance, a tolling provision whose
sole basis in reason is residency regardless of its
actual impact on the state’s interest in investigating
and prosecuting crimes presents a constitutional
violation times two lying directly in plain sight.
CONCLUSION
Our federal constitution stands as the finest
example of governmentally protected individual
rights known to mankind. The rights implicated in
35

this case are among its most important: the right to
be presumed innocent until proven guilty beyond a
reasonable doubt; the right to be treated the same as
other similarly situated individuals; and the right to
enjoy the same privileges and immunities as other
citizens. It is only when governmental interests
outweigh those precious rights that they must stand
aside.
And while there are certainly instances where
the State’s interest in investigating, interrogating,
charging, and convicting a criminal defendant is
sufficient to outweigh the protections of privileges
and immunities and equal protection, such is not the
case where no complaint has been made, no
investigation commenced, and no charges sought. In
such an instance, the possibility of criminality is
nothing more than mere conjecture. And where an
otherwise legitimate governmental interest is purely
a matter of abstract possibility, it cannot serve as a
basis to differentiate between citizens and noncitizens, residents and nonresidents.
The simple fact is this: Joel James bore exactly
the same odds of being criminally charged until 2007
as any resident of the state of Michigan. Thereafter,
based solely upon the identifier “Alaska” on his
driver’s license and without an ongoing investigation
or complaint, his odds became infinitely higher than
those of a Michigan resident thanks solely to the
nonresident tolling provisions of MCL 767.24. Its
application under these circumstances is offensive to
the United States Constitution.
Accordingly,
Defendant Joel James respectfully requests that this
36

Court issue a Writ of Certiorari to the Michigan Court
of Appeals.
Respectfully Submitted,
Matthew J. Wojda
Counsel for Petitioner
White, Wojda and Curtis
313 N. Second Avenue
Alpena, MI 49707
989-354-4104
mjwojda@dwwhitelaw.com
Date: September 30, 2019

37

APPENDIX

APPENDIX A
STATE OF MICHIGAN
COURT OF APPEALS
__________________________________/
PEOPLE OF THE
STATE OF MICHIGAN,
Plaintiff-Appellant,
FOR PUBLICATION
October 11, 2018
9:00 a.m.
v
No. 342504
Alpena Circuit Court
LC No. 15-006730-FH
JOEL HOWARD JAMES,
Defendant-Appellee.
_____________________________________/
Advance Sheets Version
Before: MURPHY, P.J., and
SWARTZLE, JJ. SWARTZLE, J.
1A

SAWYER

and

If a crime occurs, but no one reports it, is it still
a crime? To ask the question is to answer it. The state
of Michigan has an interest in discovering previously
unreported crimes, and this interest serves as a
rational basis for the Legislature’s tolling of the
statute of limitations with respect to nonresidents
charged with a crime that remained unreported until
after the untolled limitations period had lapsed.
Defendant, a resident of Alaska, allegedly
sexually assaulted a female minor while visiting
Michigan in the 1990s. The statute of limitations
periods expired in 2006 and 2007 absent any tolling,
but the purported victim did not report the crime until
2012. The prosecutor charged defendant with
criminal sexual conduct (CSC) III, a crime for which
the statute of limitations is tolled while the person
charged resides outside of Michigan. The charges
were subsequently dismissed by the trial court on
equal-protection grounds because, had defendant
been a resident, the limitations period would have
expired before the crime was reported. Finding this to
be a distinction without a difference, we reverse.
I. BACKGROUND
Born in Michigan in 1955, defendant served in
the military and eventually moved to Alaska. From
the early 1990s until 2013, defendant worked
primarily for construction companies in Alaska,
although he periodically returned to Alpena County,
where he still owned property. Beginning in 1992,
2A

during these trips to Michigan, defendant sexually
assaulted his then 11-year-old niece, and later,
beginning in the early 2000s, defendant allegedly
sexually assaulted his niece’s minor daughter.
Neither the niece nor her daughter reported the
matter to authorities until 2012, and during the
ensuing investigation, a third person disclosed to
police that defendant sexually assaulted her multiple
times in 1996 and 1997 when she was 13 and 14 years
old.
Defendant was extradited to Michigan in 2013
to face CSC charges involving the niece and her
daughter, and in 2015, the prosecutor filed similar
charges against defendant involving the third person.
Defendant was bound over on the various charges. A
jury subsequently found defendant not guilty on
charges related to the niece’s daughter, but a second
jury found defendant guilty of CSC-I with regard to
the niece. The jury deadlocked on the charges
involving the third person, and the prosecutor
subsequently refiled a new information charging
defendant with two counts of CSC-III involving this
third person. The current appeal solely involves these
refiled CSC-III charges.
Defendant moved to dismiss the refiled charges
based on the statute of limitations. The statute of
limitations for CSC-III in effect at the time stated
that a charge had to be filed within 10 years after the
offense occurred or before the alleged victim’s twenty3A

first birthday, whichever is later. MCL 767.24(3)(a).1
Given the person’s age at the time of the alleged
assaults, the latest periods would have expired in
2006 and 2007, well before defendant was extradited
and charged with CSC-III in 2015. Yet, the
Legislature also included a tolling provision
applicable to any limitations period that had not yet
expired: “Any period during which the party charged
did not usually and publicly reside within this state is
not part of the time within which the respective
indictments may be found and filed.” MCL 767.24(8).
2 In other words, the statute of limitations period is
effectively “paused” during the time the party resides
outside of Michigan or is otherwise “not usually and
publicly” residing in this state. There is no question
that defendant “did not usually and publicly reside”
in Michigan from at least the 1990s until 2013, so if
the tolling provision applies, the 10-year limitations
MCL 767.24 has been amended several times since the charges
in this case were filed. Most recently, MCL 767.24 was amended
to provide that a charge involving a minor victim of third degree
sexual assault has to be filed “within 15 years after the offense
is committed or by the alleged victim’s twenty-eighth birthday,
whichever is later.” MCL 767.24(4)(a), as amended by 2018 PA
182. Because defendant was charged in 2015 with committing
the instant offenses, however, the 2018 amendment is
inapplicable to this case.

1

“An out-of-state tolling provision has been part of MCL 767.24
for the entire time frame captured by this case.” People v
Kasben, 324 Mich App 1, 4 n 2; 919 NW2d 463 (2018). The outof-state tolling provision codified in MCL 767.24(8) at the time
the charges were filed in this case is now codified at MCL
767.24(11).
2

4A

periods on the CSC-III charges would not have lapsed
by the time defendant was charged.
In his motion, defendant argued that the
tolling provision was unconstitutional as-applied to
him, both under the Equal Protection Clause and the
Privileges and Immunities Clause of the Fourteenth
Amendment. The trial court agreed with defendant,
reasoning that “the tolling provision seems to have
only been applied in limited situations where a
suspect was a nonresident during the limitations
period.” The trial court could find “no rational basis
for the tolling provision” to apply when no crime was
reported and the party charged was not a suspect
before the untolled limitations period had expired.
Concluding that the tolling provision violated
defendant’s right to equal protection, the trial court
dismissed the CSC-III charges.
This appeal followed.
II. ANALYSIS
There are two issues on appeal—does the
tolling provision in MCL 767.24 violate defendant’s
constitutional right to interstate travel or his right to
equal protection under the law? While defendant
argues that these are fact-based inquiries, the
pertinent facts are not in doubt. Accordingly, with
respect to the constitutional and statutory issues
applicable here, we review them de novo. People v
Harris, 499 Mich 332, 342; 885 NW2d 832 (2016).
5A

A. TOLLING A LIMITATIONS PERIOD DOES NOT
VIOLATE THE RIGHT TO TRAVEL
We begin with defendant’s argument that the
tolling provision violates his constitutional right to
travel. Under the federal Fourteenth Amendment’s
Privileges and Immunities Clause, a person has the
fundamental right to travel across the United States.
US Const, Am XIV, § 1; Jones v Helms, 452 US 412,
418; 101 S Ct 2434; 69 L Ed 2d 118 (1981). This
fundamental right is not without qualification, and,
in the criminal context, the right is subject to the
legitimate interests of states. See Jones, 452 US at
419.
We find little merit in defendant’s argument.
The tolling provision here only applies when a party
is not usually and publicly residing in Michigan and,
therefore, it does not restrict in any way a person’s
right to travel within, across, or outside of Michigan’s
borders. Although the provision does create a
negative consequence for someone who resides
outside of Michigan and becomes a suspect in a crime
that occurred within the state, this Court has already
held that “the tolling provision advances a compelling
state interest in permitting later prosecutions in
cases where a defendant no longer resides in the
jurisdiction.” People v Crear, 242 Mich App 158, 166;
618 NW2d 91 (2000), overruled in part on other
grounds by People v Miller, 482 Mich 540 (2008); cf.
Commonwealth v Lightman, 339 Pa Super 359, 372;
489 A2d 200 (1985) (Spaeth, P.J., concurring and
6A

writing for the majority) (holding that “appellant’s
right to travel was qualified, if at all, not by an
arbitrary distinction drawn by the government, but
by his own criminal conduct”). Although Crear was
subsequently overruled on other grounds and
therefore the decision is not binding, Dunn v Detroit
Auto Inter-Ins Exch, 254 Mich App 256, 262; 657
NW2d 153 (2002); MCR 7.215(J)(1), we agree with its
analysis and come to the same conclusion—the tolling
provision of MCL 767.24 does not violate the right to
travel found in the Privileges and Immunities Clause
of the Fourteenth Amendment.
B. THE TOLLING PROVISION
VIOLATE EQUAL PROTECTION

DOES

NOT

This leaves us to consider defendant’s primary
claim before the trial court and now on appeal—
whether defendant’s “rights as a ‘class of one’ under
the equal protection clause of both the Michigan and
United States Constitutions are violated through the
application of the nonresident tolling provision.” The
scope of Michigan’s Equal Protection Clause is
coextensive with that of its federal counterpart, so the
provisions will be considered together in analyzing
defendant’s claim. Const 1963, art 1, § 2; US Const,
Am XIV, § 1; see Crego v Coleman, 463 Mich 248, 258;
615 NW2d 218 (2000). In essence, equal protection
requires that persons be treated alike with respect to
“certain, largely innate, characteristics that do not
justify disparate treatment.” Crego, 463 Mich at 258.
7A

Defendant concedes that the tolling provision
is constitutional on its face, but he argues that the
provision is unconstitutional as-applied to him
because he was never a suspect in a crime reported
before the statute of limitations period would have
run absent any tolling. Only after the untolled
limitations periods would have lapsed did the women
come forward and report that they had been sexually
assaulted by defendant years before. If he had been a
resident 3 throughout this period, then the limitations
periods would have expired in 2006 and 2007 before
any sexual assault was reported or he had become a
suspect, and, as a result, he would now be beyond
prosecution. To apply the tolling provision in this case
would be to treat him unequally to those residents
who are similarly situated, according to defendant.
Defendant presents his claim as an as-applied,
“class of one” equal-protection challenge. 4 To prevail
As noted, the tolling provision applies to those who did “not
usually and publicly reside” in Michigan, MCL 767.24(8), and
this encompasses more than just those who did not physically
reside in the state. For our purposes, we will refer to the
distinction between “residents” and “nonresidents,” but the
latter term should be understood to include those who physically
lived in Michigan, though not “customarily and openly.” Kasben,
324 Mich App at 9 (cleaned up).

3

A “facial” challenge and an “as-applied” challenge can share
some overlapping features. As the Sixth Circuit observed in
Green Party of Tennessee v Hargett, 791 F3d 684, 692 (CA 6,
2015), an as-applied claim “can challenge more than just the
plaintiff’s particular case without seeking to strike the law in all
its applications.” If successful, then defendant’s legal position
4

8A

on the claim, defendant must show both that (1) he
“has been intentionally treated differently from
others similarly situated,” and (2) “there is no rational
basis for the difference in treatment.” Willowbrook v
Olech, 528 US 562, 564; 120 S Ct 1073; 145 L Ed 2d
1060 (2000). To be similarly situated to an identified
group, defendant must show that he is comparable in
all material respects to the members of that group. If
he cannot establish that he was treated unequally in
some material way, then there is no violation of equal
protection. Lima Twp v Bateson, 302 Mich App 483,
503; 838 NW2d 898 (2013).
As for the rational-basis inquiry, it is a highly
deferential one. Defendant must negate “every
conceivable reason for the government’s actions” or
show “that the actions were motivated by animus or
ill-will.” Loesel v Frankenmuth, 692 F3d 452, 462 (CA
6, 2012) (cleaned up). With respect to a claim based
on legislation, the Legislature need not have actually
articulated a particular rationale, and it is sufficient
if the Court can identify an interest that may have
reasonably been the rationale. TIG Ins Co, Inc v Dep’t
of Treasury, 464 Mich 548, 561- 562; 629 NW2d 402
(2001). “Rational-basis review does not test the
wisdom, need, or appropriateness of the legislation, or
whether the classification is made with mathematical
nicety, or even whether it results in some inequity
would presumably apply to all nonresidents who were charged
under similar factual circumstances.

9A

when put into practice.” Crego, 463 Mich at 260
(cleaned up). Given this, there is a strong
presumption that the statute is constitutional. People
v Conat, 238 Mich App 134, 154; 605 NW2d 49 (1999).
Nonresidents Are Not Similarly Situated to
Residents. As explained, defendant argues that he
should be compared to Michigan residents who were
not identified as suspects for reported crimes within
the untolled limitations periods. Had defendant been
a resident, the limitations periods would not have
been tolled, the periods would have expired in 2006
and 2007, and he would have been immune from
prosecution. But because he was a nonresident, he
was extradited and charged with CSC-III. Defendant
contrasts this purportedly similarly situated group
with those persons (resident or not) who were
identified as suspects in reported crimes prior to the
expiration of the untolled limitations periods.
There is, however, a flaw in defendant’s
argument. The set of similarly situated persons must
be comparable to defendant in all material aspects.
On its face, the tolling provision applies to all persons
who commit a crime in Michigan and then no longer
reside usually and publicly in the state. MCL
767.24(8). Following this, the most natural
comparison set for defendant’s claim would be those
persons who do not usually and publicly reside here.
See, e.g., State v March, 395 SW3d 738, 788 (Tenn
Crim App, 2011) (“The tolling statute on its face
10A

applies equally to all persons who commit a crime in
this State and then depart.”).
Defendant disagrees and instead compares
himself to residents. Yet, with respect to a state’s
police power, there is a material distinction between
someone who resides within the state and someone
who does not. A state’s power to investigate and
prosecute a person is severely diminished when that
person does not reside within its borders. State and
local law enforcement resources are not infinite, and
such resources will often be insufficient to investigate,
question, or prosecute someone who resides in a
different state. See Burns v Lafler, 328 F Supp 2d 711,
721 (ED Mich, 2004). Choices need to be made about
how best to allocate finite law enforcement resources,
and rarely will those resources best be used pursuing
out-of-state persons. Moreover, as laboratories for
public policy, other states may not share Michigan’s
priorities with respect to criminal law, and a case that
is important in this state may receive less attention
from authorities in another state. See State v Sher,
149 Wis 2d 1, 14; 437 NW2d 878 (1989). For these and
other reasons, courts have held that residents and
nonresidents are not similarly situated for
equalprotection purposes. See, e.g., Burns, 328 F
Supp 2d at 721 (collecting cases).
The State Has an Interest in Discovering
Previously Unreported Crimes. Defendant rejoins that
his situation is factually distinguishable from Burns
and similar cases, because in each of those cases there
was at least a crime reported, if not a suspect
11A

identified, within the untolled limitations period.
According to defendant, the state has no legitimate
interest in tolling a limitations period for which there
has not been a crime reported or suspect identified.
As he sums up in his brief, “there was no ‘victim’ to
protect or for whom to seek justice because none had
come forward” and “the State has absolutely no
interest in distinguishing between residents and
nonresidents for purposes of a purely hypothetical
future claim.”
Defendant’s position is without support in law
or reason. With respect to law, nowhere in the statute
is there a requirement that “the party charged” has to
have been an actual suspect in an identified crime
prior to the expiration of the untolled limitations
period. The term “party charged” simply refers to the
party, here defendant, who was charged with a crime
to which the limitations and tolling provisions of MCL
767.24 apply. There is no qualification placed on the
“party charged” for the tolling provision to apply other
than that the party must not have “usually and
publicly reside[d] within this state.” We will not read
into the statute a term that the Legislature did not
put there. D’Agostini Land Co, LLC v Dep’t of
Treasury, 322 Mich App 545, 557; 912 NW2d 593
(2018).
Similarly, the authority that the trial court
relied upon for the proposition that, for the tolling
provision to apply, defendant must have been a
“suspect” or an “accused” prior to the expiration of the
12A

untolled limitations period, is inapposite. See Crear,
242 Mich App 158; People v McIntire, 232 Mich App
71; 591 NW2d 231 (1998), rev’d on other grounds 461
Mich 147 (1999); OAG, 1928-1930, p 582 (September
16, 1929). While these authorities do indeed use terms
such as “suspect” and “accused,” in none of these cases
was the court or attorney general faced with the
question presented here. It is clear that the terms
were used in those cases merely as generic
descriptions, not as specific limitations on who may
be subject to tolling while residing out of state.
With respect to reason, we point out the
obvious—an unreported crime is still a crime, and the
victim of an unreported crime is still a victim. There
may be any number of reasons why a crime is not
initially reported, including a victim’s age,
vulnerability, or fear, or the lack of corroborating
witnesses or physical evidence. The state certainly
has an interest in discovering previously unreported
crimes, as well as subsequently investigating and
prosecuting them. Cf. March, 395 SW3d at 787
(holding that “the State’s interest in detecting crime
and punishing offenders is compelling”) (emphasis
added); Sher, 149 Wis 2d at 16 (observing that the
“statute is substantially related to the state’s
interests in the detection of crimes, and the
identification and apprehension of criminals”)
(emphasis added); Scherling v Superior Court of
Santa Clara Co, 22 Cal 3d 493, 503; 585 P2d 219
(1978) (concluding that “the Legislature could have
determined that the detection of the crime and
13A

identification of the criminal are more likely if the
criminal remains in the state than if he departs”)
(emphasis added).
Moreover, it is certainly conceivable that an
unreported crime will more likely be discovered when
the guilty party resides within the state where the
crime occurred. A chance encounter between the
guilty party and the victim, a casual conversation
between the guilty party and someone with
knowledge of the victim or circumstances, or a
relatively minor traffic infraction leading to a
confession, are just several circumstances in which
residing in the same state where the crime occurred
could increase the chance of local law enforcement
discovering an unreported crime. Proximity often
leads to discovery.
Defendant is correct that a “purely
hypothetical” criminal act cannot serve as a rational
basis for distinguishing between residents and
nonresidents. Yet, the prosecutor’s case here does not
rest on a “purely hypothetical” claim. Rather, the
prosecutor presented sufficient evidence to establish
that there was probable cause to believe that
defendant sexually assaulted the complainant.
Whether the passage of time or delay in reporting
undermines the prosecutor’s case is a question for the
jury, not for this Court on appeal.
Finally, we do recognize that there is some
tension between applying the tolling provision in this
14A

case and the general interests served by a statute of
limitations. As explained by the federal Supreme
Court, “Such a limitation is designed to protect
individuals from having to defend themselves against
charges when the basic facts may have become
obscured by the passage of time and to minimize the
danger of official punishment because of acts in the
far-distant past.” Toussie v United States, 397 US
112, 114-115; 90 S Ct 858; 25 L Ed 2d 156 (1970). By
tolling the limitations period for nonresidents in cases
like this one, there is an increased risk that basic facts
might become obscured with the passage of time. Yet,
this is an increased risk faced in all situations
involving nonresidents. In the face of this risk, the
Legislature has seen fit to draw a distinction between
residents and nonresidents and, for the reasons set
forth earlier, it had a rational basis for doing so. As
there is no suggestion that the Legislature or
prosecutor was motivated by animus or ill-will,
defendant’s as-applied, “class of one” equal-protection
claim must fail.
III. CONCLUSION
The
Legislature distinguishes
between
Michigan residents and nonresidents for purposes of
tolling the statute of limitations for certain crimes.
There are rational grounds for doing so, including the
investigation, prosecution, and, indeed, the very
discovery of previously unreported crimes. Given this,
it is not a violation of defendant’s right to interstate
travel or equal protection to charge him with CSC-III
15A

related to alleged criminal conduct not reported until
after the untolled limitations periods had expired.
Accordingly, we reverse the trial court and remand for
further proceedings consistent with this opinion. We
do not retain jurisdiction.

/s/ Brock A. Swartzle
/s/ William B. Murphy
/s/ David H. Sawyer

16A

APPENDIX B
Order
Michigan Supreme Court Lansing, Michigan
July 2, 2019
Bridget M. McCormack,
158719
Chief Justice
David F. Viviano,
SC: 158719
Chief Justice Pro Tem
COA: 342504
Stephen J. Markman
Alpena CC: 15-006730-FH Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v
JOEL HOWARD JAMES,
Defendant-Appellant.
_________________________________________/
On order of the Court, the application for leave to
appeal the October 11, 2018 judgment of the Court of
Appeals is considered, and it is DENIED, because we
are not persuaded that the question presented should
be reviewed by this Court.
I, Larry S. Royster, Clerk of the Michigan Supreme
Court, certify that the foregoing is a true and
complete copy of the order entered at the direction of
the Court.
July 2, 2019
Larry S. Royster, Clerk
17A

APPENDIX C
STATE OF MICHIGAN
IN THE 26th CIRCUIT COURT
FOR THE COUNTY OF ALPENA
PEOPLE OF THE STATE OF MICHIGAN
Plaintiff,
Circuit Court File No.: 15-006753-AP
v.
Lower Court File No.: 15-0337-FY
JOEL HOWARD JAMES
Defendant.
______________________________________/
K. Edward Black (P64056)
Alpena County Prosecuting Attorney
719 W. Chisholm Street, Ste. 2
Alpena, MI 49707
(989) 354-9738
Daniel W. White (P27738)
White and Wojda
Attorneys for Defendant
313 North Second Avenue
Alpena, MI 49707
(989) 354-4104
_________________________________________/
OPINION AND ORDER
PRESENT: HON. MICHAEL G. MACK, CIRCUIT
COURT JUDGE
18A

This Court granted defendant’s interlocutory
application for leave to appeal. On September 4,
2015, oral argument was heard on the matter. The
sole issue placed under advisement was whether the
nonresident tolling provision of MCL 767.34(8)
produces an “absurd and unjust result.” The 88th
District Court held that it does not. For the reasons
provided herein, I affirm.
I. BACKGROUND
Defendant has been charged with criminal
sexual conduct that allegedly occurred in 1996. At
that time, he was a resident of Alaska and remained
so until being extradited. A ten-year statute of
limitations applies to the charges.
II. APPLICABLE STATUTE
Any period during which the party
charged did not usually and publically
reside within this state is not part of the
time within which the respective
indictments may be found and filed.
MCL 767.24(8).
III. STANDARD OF REVIEW
Questions of statutory construction are
reviewed de novo. People v Danto, 294 Mich App 596;
822 NW2d 600 (2011).
IV. ANALYSIS
Statutes that are plain and unambiguous are
to be applied as written, and are not open to judicial
interpretation.
However, a departure from an
unambiguous statute is permitted where a literal
19A

construction would produce an “absurd and unjust
result” inconsistent with the purposes and policies of
the act, People v Brewersdorf, 438 Mich 55; 475 NW2d
231 (1991). In this matter, the allegations did not
surface until 2012. Had defendant been a constant
resident of Michigan, the statute of limitations would
have expired. However, the limitations period was
tolled because he resided in Alaska. See MCL
768.24(8). Defendant now argues this produces an
“absurd and unjust result.”
At oral argument, defendant referred this
Court to the decision in People v Budnick, 197 Mich
App 21; 494 NW2d 778 (1992). In Budnick, the
defendant was charged with first degree criminal
sexual conduct. The act was alleged to have occurred
in October of 1975. The complainant was ten years
old at the time of the offense and reached her twentyfirst birthday on March 2, 1986. The defendant had
lived continuously in Wisconsin since 1978. He
moved to quash on the ground that prosecution was
barred by the statute of limitations.
Defendant’s reliance on Budnick is misplaced.
When Budnick was decided, the applicable statute of
limitations was MCL 767.24. The statute provided:
(1)…Except as otherwise provided in
subsection (2), all…indictments [other
than for certain offenses not at issue
here] shall be found and filed within 6
years after the commission of the
offense. However, any period during
which the party charged did not usually
20A

and publicly reside within this state
shall not be considered part of the time
within which the respective indictments
shall be found and filed.
(2) Notwithstanding subsection (1), if an
alleged victim was under 18 years of age
at the time of the commission of the
offense, an indictment for an offense
under section 145c or 520b to 520g of the
Michigan penal code, Act No. 328 of the
Public Acts of 1931, being sections
750.145c and 750.520b to 750.520g of the
Michigan Compiled Laws, may be found
and filed with 6 years after the
commission of the offense or by the
alleged victim’s twenty-first birthday,
whichever is later.
This Court held that the nonresident tolling
provision of subsection (1) had equal application to
the prosecution of offenses that fell within subsection
(2). Id. At 26. Therefore, if the defendant did not take
up residence in Michigan after 1978, the six-year
statute of limitations remained tolled. Id. At 27. This
holding, which is consistent with the intent of
legislature, does not support defendant’s current
position.
The prosecution has cited People v McIntire,
232 Mich App 71, 94; 591 NW2d 231 (1998), rev’d on

21A

other grounds, 461 Mich 147 (1999). 5 In McIntire, the
Court held that the limitations period could be tolled
even though the defendant was living openly in South
Carolina, it was easy for authorities to locate him, he
did not leave the state to avoid prosecution, and the
defendant’s absence did not prevent prosecutors from
going forward with the case. Id. at 98. The Court
concluded that applying the tolling provision under
such circumstances was what the Legislature
intended. Id. at 97-99. The Court also rejected the
views of other states where tolling provisions were
applied only when a suspect had absconded or was not
amenable to process. Id. at 100. Although the
defendant in McIntire may have been aware of a
possible
ongoing investigation,
the
present
circumstances are otherwise substantially similar.
Consequently, unless the defendant took up residence
in Michigan during the period in question, the statute
of limitations would be tolled. This does not create an
“absurd and unjust result.”
This court also acknowledges that factual
disputes involving MCL 767.24 should be submitted
to a jury. People v Artman, 218 Mich App 236; 553
NW2d 673 (1996). Here, defendant has presented
some evidence tending to show that he may have
resided in this state during the period in question. He
owns property in Lachine, Michigan; regularly visited
that property; and has maintained contacts in this
state. The question of whether this demonstrates
residence is for a jury to decide.
Although McIntire was reversed on other grounds, the Court’s
analysis regarding the statute of limitations has still been found
to be persuasive.

5

22A

For these reasons, in addition to the reasons
stated on the record, the district court is
AFFIRMED.
Dated: September 8, 2015
Hon. Michael G. Mack, Circuit Judge
I hereby certify that I served a copy of the foregoing
document upon all attorneys/parties of record.
Date: 9/8/15

Joan M. LaMarre
Clerk

23A

APPENDIX D
STATE OF MICHIGAN
IN THE 26th CIRCUIT COURT
FOR THE COUNTY OF ALPENA
PEOPLE OF THE STATE OF MICHIGAN
Plaintiff,
File No.: 15-006730-FH
v.
JOEL HOWARD JAMES
Defendant.
______________________________________/
K. Edward Black (P64056)
Alpena County Prosecuting Attorney
719 W. Chisholm Street, Ste. 2
Alpena, MI 49707
(989) 354-9738
Daniel W. White (P27738)
White and Wojda
Attorneys for Defendant
313 North Second Avenue
Alpena, MI 49707
(989) 354-4104
_________________________________________/
OPINION AND ORDER
PRESENT: HON. MICHAEL G. MACK, CIRCUIT
COURT JUDGE

24A

Defendant Joel James is charged with thirddegree criminal sexual conduct which allegedly
occurred in 1996 and 1997. During the period in
question, the defendant owned property in Michigan
but was a continuous resident of Alaska. He now
moves to dismiss. According to defendant, the
nonresident tolling provision in MCL 767.24(10) 6 is
unconstitutional as applied to him because it
impermissibly infringes on his constitutional right to
equal protection.
I. Timeliness
The prosecution contends the present motion is
untimely for essentially raising a previously rejected
argument. The Court does not agree. While the
defendant used substantially similar verbiage in prior
motions, he now advances an entirely different
constitutional challenge, i.e., that MCL 767.24 is
unconstitutional as applied to the facts of this case.
As such, the Court cannot conclude that the motion is
untimely.
II. Equal Protection
Equal protection of the law is guaranteed by
the United States and Michigan constitutions. U.S.
Const, AM XIV; Const 1963. Both afford similar
protections and require that all persons similarly
situated be treated alike under the law. Doe v Dept of
Social Services, 439 Mich 650; 487 NW2d 166 (1992).
The Court notes that Public Act 2017, No. 79 (effective October
9, 2017) recently changed the nonresident tolling provision in
MCL 767.24 to subsection (10).

6

25A

While a facial challenge is extremely rigorous, an asapplied challenge is less stringent and requires a
court to analyze the constitutionality of the statute
against a backdrop of the facts developed in the
particular case. Kennan v Dawson, 275 Mich App
671, 680; 739 NW2d 681 (2007).
Defendant’s equal protection argument is
premised on a “class-of-one” theory. 7 The United
States Supreme Court and Michigan Supreme Court
have recognized that a class-of-one may advance an
equal protection claim where (1) an individual has
been intentionally treated differently from others
similarly situated, and (2) there is no rational basis
for the difference in treatment. Sioux City Bridge Co
v Dakota Co, 260 U.S. 441; 43 S Ct 190; 67 L Ed 340
(1923); Village of Willowbrook v Olech, 528 US 562,
564; 120 S Ct 1073; 145 L Ed 2d 1060 (2000);
Shepherd Montessori Ctr Milan v Ann Arbor Charter
Twp, 486 Mich 311; 783 NW2d 695 (2010). The Court
will address each factor in turn.
A. Similarly Situated
Courts have yet to define the extent to which
individuals must be similarly situated to others in
order to maintain a class-of-one claim. McDonald v
Village of Winnetka, 371 F3d 992, 1002 (7th Cir. 2004).
Federal appellate courts have held that to be
considered similarly situated, the challenger and his
comparators must be “prima facie identical in all
Although such claims are typically presented in civil
proceedings, they have also been pursued in criminal cases. See
United States v Green, 654 F3d 637, 651; (6th Cir. 2011).

7

26A

relevant respects or directly comparable…in all
material respects.” United States v Moore, 543 F3d
891, 899 (7th Cir. 2008); Lima Twp v Bateson, 302
Mich App 483, 503; 838 NW2d 898 (2013). This is
because equal protection ensures that people under
similar circumstances will be treated alike, but does
not require a person under different circumstances to
be treated the same. Yaldo v North Point Ins Co, 217
Mich App 617, 623; 552 NW2d 657 (1996).
Defendant asserts that he is similarly situated
to a resident charged under identical circumstances.
The Court agrees.
And under this scenario, a
resident would be entitled to dismissal pursuant to
the statute of limitations, while he is not. Therefore,
the issue becomes whether there is a rational basis for
this difference of treatment.
B. Rational Basis
Under the rational basis test, courts will not
overturn government action unless the varying
treatment is so unrelated to the achievement of any
combination of legitimate purposes that the court can
only conclude that the government’s actions were
irrational. Kimel v Fla Bd of Regents, 528 U.S. 62;
120 S Ct 631; 145 L Ed 2d 522 (2000). “A rational
basis shall be found to exist if any set of facts
reasonably can be conceived to justify the alleged
discrimination.”
Syntex Laboratories v Dept of
Treasury, 233 Mich App 286, 290; 590 NW2d 612
(1998).

27A

MCL 767.24(10) provides that the limitations
period is tolled for “any period during which the party
charged did not usually and publicly reside within
this state…” In interpreting this language, courts
have consistently held that nonresident tolling
“applies only in those situations where a suspect is no
longer a resident of this state.” People v Crear, 242
Mich App 158; 618 NW2d 91 (2000), overruled in part
on other grounds by People v Miller, 482 Mich 540;
759 NW2d 850 (2008) (emphasis added); see also
People v McIntire, 232 Mich App 71, 105; 591 NW2d
231 (1998), reversed on other grounds 461 Mich 147
(1999). These holdings corroborate a prior attorney
general opinion that determined the statute of
limitations will not run against an accused while not
usually and publicly residing within the state. Op
Atty Gen, 1928-1930, p 582. Logically, then, the
tolling provision advances a state interest in
permitting later prosecutions in cases where a
suspect or accused no longer resides in Michigan.
In comparison, it is undisputed that the
defendant was not a suspect until after the statute of
limitations had expired. This is because he was not
accused on any wrongdoing until 2012, and no
investigation commenced until that time. The Court
is aware of no case in Michigan jurisprudence where
nonresident tolling has been applied under such
circumstances. Rather, the tolling provision seems to
have only been applied in limited situations where a
suspect was a nonresident during the limitations
period. See People v Crear, 242 Mich App 158; 618
NW2d 91 (2000), overruled in part on other grounds
by People v Miller, 482 Mich 540; 759 NW2d 850
28A

(2008), People v McIntire, 232 Mich App 71, 105; 591
NW2d 231 (1998), reversed on other grounds 461
Mich 147 (1999); and People v Budnick, 197 Mich App
21; 494 NW2d 778 (1992); The Court sees no rational
basis for the tolling provision to be extended to this
case. 8
The Court is mindful that this is an
exceptionally limited, fact-driven circumstance
involving MCL 764.24(10). Nonetheless, defendant,
as a class-of-one, has sufficiently demonstrated that
the statute violates equal protection in this matter.
The motion to dismiss is GRANTED.
It Is So ORDERED.
Dated:1/18/18 Hon. Michael G. Mack, Circuit Judge
I hereby certify that I served a copy of the foregoing
document upon all attorneys/parties of record.
Date: 1/18/18

Clerk Vicki Hamilton

In so finding, the Court need not reach the question whether
MCL 767.24(10) infringes on defendant’s constitutional right to
travel.

8

29A

APPENDIX E
MCR 767.24
Indictment; crimes; "Theresa Flores's Law";
definitions; Brandon D'Annunzio's law; findings
and filing; exceptions for victims under 18;
extension or tolling.
Sec. 24.
(1) An indictment for any of the following crimes may
be found and filed at any time:
(a) Murder, conspiracy to commit murder, or
solicitation to commit murder, or criminal sexual
conduct in the first degree.
(b) A violation of chapter XXXIII of the Michigan
penal code, 1931 PA 328, MCL 750.200 to 750.212a,
that is punishable by imprisonment for life.
(c) A violation of chapter LXVIIA of the Michigan
penal code, 1931 PA 328, MCL 750.462a to 750.462h,
that is punishable by imprisonment for life.
(d) A violation of the Michigan anti-terrorism act,
chapter LXXXIII-A of the Michigan penal code, 1931
PA 328, MCL 750.543a to 750.543z, that is
punishable by imprisonment for life.
(2) An indictment for a violation or attempted
violation of section 13, 462b, 462c, 462d, or 462e of the
Michigan penal code, 1931 PA 328, MCL 750.13,
750.462b, 750.462c, 750.462d, and 750.462e, may be
found and filed within 25 years after the offense is
committed. This subsection shall be known as
"Theresa Flores's Law".
30A

(3) Except as provided in subsection (4) for a
violation of section 520c or 520d of the Michigan penal
code, 1931 PA 328, MCL 750.520c and 750.520d, in
which the victim is under 18 years of age, an
indictment for a violation or attempted violation of
section 136, 136a, 145c, 520c, 520d, 520e, or 520g of
the Michigan penal code, 1931 PA 328, MCL 750.136,
750.136a, 750.145c, 750.520c, 750.520d, 750.520e,
and 750.520g, may be found and filed as follows:
(a) Except as otherwise provided in subdivision (b),
an indictment may be found and filed within 10 years
after the offense is committed or by the alleged
victim's twenty-first birthday, whichever is later.
(b) If evidence of the offense is obtained and that
evidence contains DNA that is determined to be from
an unidentified individual, an indictment against
that individual for the offense may be found and filed
at any time after the offense is committed. However,
after the individual is identified, the indictment may
be found and filed within 10 years after the individual
is identified or by the alleged victim's twenty-first
birthday, whichever is later.
(4) An indictment for a violation of section 520c or
520d of the Michigan penal code, 1931 PA 328, MCL
750.520c and 750.520d, in which the victim is under
18 years of age may be found and filed as follows:
(a) Except as otherwise provided in subdivision (b),
an indictment may be found and filed within 15 years
after the offense is committed or by the alleged
victim's twenty-eighth birthday, whichever is later.
(b) If evidence of the offense is obtained and that
evidence contains DNA that is determined to be from
an unidentified individual, an indictment against
that individual for the offense may be found and filed
31A

at any time after the offense is committed. However,
after the individual is identified, the indictment may
be found and filed within 15 years after the individual
is identified or by the alleged victim's twenty-eighth
birthday, whichever is later.
(5) As used in subsections (3) and (4):
(a) "DNA" means human deoxyribonucleic acid.
(b) "Identified" means the individual's legal name is
known and he or she has been determined to be the
source of the DNA.
(6) An indictment for kidnapping, extortion, assault
with intent to commit murder, attempted murder,
manslaughter, armed robbery, or first-degree home
invasion may be found and filed as follows:
(a) Except as otherwise provided in subdivision (b),
an indictment may be found and filed within 10 years
after the offense is committed.
(b) If the offense is reported to a police agency within
1 year after the offense is committed and the
individual who committed the offense is unknown, an
indictment for that offense may be found and filed
within 10 years after the individual is identified. This
subsection shall be known as Brandon D'Annunzio's
law. As used in this subsection, "identified" means the
individual's legal name is known.
(7) An indictment for identity theft or attempted
identity theft may be found and filed as follows:
(a) Except as otherwise provided in subdivision (b),
an indictment may be found and filed within 6 years
after the offense is committed.
(b) If evidence of the offense is obtained and the
individual who committed the offense has not been
identified, an indictment may be found and filed at
32A

any time after the offense is committed, but not more
than 6 years after the individual is identified.
(8) As used in subsection (7):
(a) "Identified" means the individual's legal name is
known.
(b) "Identity theft" means 1 or more of the following:
(i) Conduct prohibited in section 5 or 7 of the identity
theft protection act, 2004 PA 452, MCL 445.65 and
445.67.
(ii) Conduct prohibited under former section 285 of
the Michigan penal code, 1931 PA 328.
(9) An indictment for false pretenses involving real
property, forgery or uttering and publishing of an
instrument affecting an interest in real property, or
mortgage fraud may be found and filed within 10
years after the offense was committed or within 10
years after the instrument affecting real property was
recorded, whichever occurs later.
(10) All other indictments may be found and filed
within 6 years after the offense is committed.
(11) Any period during which the party charged did
not usually and publicly reside within this state is not
part of the time within which the respective
indictments may be found and filed.
(12) The extension or tolling, as applicable, of the
limitations period provided in this section applies to
any of those violations for which the limitations
period has not expired at the time the extension or
tolling takes effect.

33A

APPENDEX F
14TH AMENDMENT
UNITED STATES CONSTITUTION
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for
President and Vice President of the United States,
Representatives in Congress, the executive and
judicial officers of a state, or the members of the
legislature thereof, is denied to any of the male
inhabitants of such state, being twenty-one years of
age, and citizens of the United States, or in any way
abridged, except for participation in rebellion, or
other crime, the basis of representation therein shall
be reduced in the proportion which the number of
such male citizens shall bear to the whole number of
male citizens twenty-one years of age in such state.
34A

Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President,
or hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
state legislature, or as an executive or judicial officer
of any state, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of twothirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
state shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

35A

APPENDIX G
MICHIGAN MODEL CRIMINAL
JURY INSTRUCTIONS
1.8
M Crim JI 1.8 Reading of Information
(1) This is a criminal case. The paper used to charge
the defendant with a crime is called an information*.
The information in this case charges the defendant,
_______________________, with the crime of
_____________________________, and reads as follows:
[Read information.]
(2) The defendant has pled not guilty to this charge.
You should clearly understand that the information I
have just read is not evidence. An information is read
in every criminal trial so that the defendant and jury
can hear the charges. You must not think it is
evidence of [his / her] guilt or that [he / she] must be
guilty because [he / she] has been charged.
Use Note
*The judge should say “indictment” or “complaint”
where appropriate.
History
M Crim JI 1.8 (formerly CJI2d 1.8) was CJI 1:2:191:2:20; amended January, 1991.
36A

Reference Guide
Case Law
Tot v United States, 319 US 463 (1943).

1.9
M Crim JI 1.9 Presumption of Innocence, Burden of
Proof, and Reasonable Doubt
(1) A person accused of a crime is presumed to be
innocent. This means that you must start with the
presumption that the defendant is innocent. This
presumption continues throughout the trial and
entitles the defendant to a verdict of not guilty unless
you are satisfied beyond a reasonable doubt that [he /
she] is guilty.
(2) Every crime is made up of parts called elements.
The prosecutor must prove each element of the crime
beyond a reasonable doubt. The defendant is not
required to prove [his / her] innocence or to do
anything.* If you find that the prosecutor has not
proven every element beyond a reasonable doubt,
then you must find the defendant not guilty.
(3) A reasonable doubt is a fair, honest doubt growing
out of the evidence or lack of evidence. It is not merely
an imaginary or possible doubt, but a doubt based on
reason and common sense. A reasonable doubt is just
that a doubt that is reasonable, after a careful and
37A

considered
examination
circumstances of this case.

of

the

facts

and

Use Note
This instruction must be given in every case.
*For some affirmative defenses, a defendant must
produce evidence. The court should instruct the jury
on the defendant’s burden of production of evidence
where it is most appropriate to do so. The committee
recommends that this be done when the court
instructs on the nature and requirements of the
affirmative defense itself.
History
M Crim JI 1.9 (formerly CJI2d 1.9) was CJI 1:2:21
and 1:2:24. Amended November, 1990; January, 1992.

3.2(1)
M Crim JI 3.2 Presumption of Innocence, Burden of
Proof, and Reasonable Doubt
(1) A person accused of a crime is presumed to be
innocent. This means that you must start with the
presumption that the defendant is innocent. This
presumption continues throughout the trial and
entitles the defendant to a verdict of not guilty unless
you are satisfied beyond a reasonable doubt that [he /
she] is guilty.
38A

Use Note
This instruction must be given in every case.
*For some affirmative defenses, a defendant must
produce evidence. The court should instruct the jury
on the defendant’s burden of production of evidence
where it is most appropriate to do so. The committee
recommends this be done when the court instructs on
the nature and requirements of the affirmative
defense itself.
History
M Crim JI 3.2 (formerly CJI2d 3.2) was CJI 3:1:023:1:05. Amended November, 1990; January, 1992.
Reference Guide
Case Law
Victor v Nebraska, 511 US 1, 5 (1994); Martin v Ohio,
480 US 228 (1987); Sandstrom v Montana, 442 US
510, 517-524 (1979); County Court of Ulster County v
Allen, 442 US 140, 156-157 (1979); Kentucky v
Whorton, 441 US 786, 789 (1979); Taylor v Kentucky,
436 US 478, 487-488 (1978); In re Winship, 397 US
358, 364 (1970); Davis v United States, 160 US 469,
486-487 (1895); People v Allen, 466 Mich 86, 643
NW2d 227 (2002); People v Nowack, 462 Mich 392,
400, 614 NW2d 78 (2000); People v Konrad, 449 Mich
263, 273, 536 NW2d 517 (1995); People v Murphy, 416
Mich 453, 463-464, 331 NW2d 152 (1982); People v
Wright, 408 Mich 1, 19-26, 289 NW2d 1 (1980); People
39A

v Gallagher, 404 Mich 429, 437-439, 273 NW2d 440
(1979); People v D’Angelo, 401 Mich 167, 182-183, 257
NW2d 655 (1977); People v Bagwell, 295 Mich 412,
419, 295 NW 207 (1940); People v Williams, 208 Mich
586, 594-595, 175 NW 187 (1919); People v Ezzo, 104
Mich 341, 342-343, 62 NW 407 (1895); People v Potter,
89 Mich 353, 355, 50 NW 994 (1891); People v Macard,
73 Mich 15, 26, 40 NW 784 (1888); People v DeFore,
64 Mich 693, 701, 31 NW 585 (1887); People v
Steubenvoll, 62 Mich 329, 334, 28 NW 883 (1886);
People v Finley, 38 Mich 482, 483 (1878); Hamilton v
People, 29 Mich 173 (1874); People v Hill, 257 Mich
App 126, 667 NW2d 78 (2003); People v Snider, 239
Mich App 393, 420-421, 608 NW2d 502 (2000); People
v Cooper, 236 Mich App 643, 656, 601 NW2d 409
(1999); People v Hubbard (After Remand), 217 Mich
App 459, 487, 552 NW2d 493 (1996), overruled in part
on other grounds by People v Harris, 495 Mich 120,
___ NW2d ___ (2014) and People v Bryant, 491 Mich
575, 822 NW2d 124, cert denied, 133 S Ct 664 (2012);
People v Sammons, 191 Mich App 351, 372, 478 NW2d
901 (1991), cert denied, 505 US 1213 (1992); People v
Jackson, 167 Mich App 388, 390-391; 421 NW2d 697
(1988).

40A

